                           SOCIAL SECURITY
                                    April 30, 2009


The Honorable John S. Tanner
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Tanner:

In a March 10, 2009 letter co-signed by Chairman Lewis, you requested our assistance
in outlining potential management reforms for Social Security Administration (SSA)
operations. I appreciate the opportunity to share our insights on these important
matters, and am pleased to provide you the enclosed report, which addresses your
specific questions.

Since November 2004, when I was appointed Inspector General for SSA, my office has
issued over 450 audit and evaluation reports describing opportunities to improve SSA
programs. We are keenly aware of SSA’s enormous and vital mission, and applaud the
Agency for its significant accomplishments. The enclosed report highlights
opportunities and challenges the Agency continues to face, as well as some of its many
success stories.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure that SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Lewis. If you have additional questions, please call me, or have your staff
contact Wade Walters, Assistant Inspector General for External Relations,
at (202) 358-6319.

                                        Sincerely,


                                        S
                                        Patrick P. O’Carroll, Jr.
                                        Inspector General

Enclosure

cc:
Michael J. Astrue

            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
                           SOCIAL SECURITY
                                     April 30, 2009


The Honorable John Lewis
Chairman, Subcommittee on
 Oversight
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Lewis:

In a March 10, 2009 letter co-signed by Chairman Tanner, you requested our
assistance in outlining potential management reforms for Social Security Administration
(SSA) operations. I appreciate the opportunity to share our insights on these important
matters, and am pleased to provide you the enclosed report, which addresses your
specific questions.

Since November 2004, when I was appointed Inspector General for SSA, my office has
issued over 450 audit and evaluation reports describing opportunities to improve SSA
programs. We are keenly aware of SSA’s enormous and vital mission, and applaud the
Agency for its significant accomplishments. The enclosed report highlights
opportunities and challenges the Agency continues to face, as well as some of its many
success stories.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure that SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Tanner. If you have additional questions, please call me, or have your staff
contact Wade Walters, Assistant Inspector General for External Relations,
at (202) 358-6319.

                                        Sincerely,


                                        S
                                        Patrick P. O’Carroll, Jr.
                                        Inspector General

Enclosure

cc:
Michael J. Astrue

            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

 Opportunities and Challenges
            for the
 Social Security Administration

          A-08-09-29152




            April 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                Background
OBJECTIVE
The objective of our review was to address the requests of Congressmen
John S. Tanner and John Lewis that we provide the Committee on Ways and Means,
U.S. House of Representatives (Committee), with recommended management reforms
for Social Security Administration (SSA) operations. Specifically, the Congressmen
requested responses to seven questions related to SSA’s challenges in meeting its core
responsibilities and opportunities for Agency improvements.

BACKGROUND
In a March 10, 2009 letter co-signed by Congressmen Tanner and Lewis, they
explained that the Committee had initiated a major oversight review to determine
whether programs within its jurisdiction are achieving their policy objectives and being
efficiently and effectively administered. The initiative is pursuant to the request of the
Honorable Nancy Pelosi, Speaker, U.S. House of Representatives, that the Committee
conduct rigorous oversight of all aspects of Federal spending and Government
operations within its jurisdiction. In meeting this requirement, the Committee requested
our input on recommended management reforms for SSA’s operations. The
Congressmen’s specific questions were as follows:

• What programs or components are in need of management reforms to reduce the
  level of improper payments or other forms of waste, fraud, and abuse?

• To what extent does the Agency provide the public—including beneficiaries,
  claimants, and workers—with timely and accurate service? Are there deficiencies in
  particular areas?

• What programs or components exemplify efficient and effective operations?

• Describe the adequacy of funding and staffing levels for the Agency.

• What has been done to address high-risk areas or material weaknesses in the
  programs or components identified as needing improvement?

• Are the Agency’s financial systems adequate?

• Does the Agency adequately oversee contracts, and are contract funds being spent
  effectively and efficiently?

Additional background and our scope and methodology are included in Appendix B of
this report.


Opportunities and Challenges for SSA (A-08-09-29152)                                         1
                                                   Results of Review
For an Agency that pays over half a trillion dollars each year, we believe strong
attention to stewardship is imperative. While SSA is justifiably proud of its history of
excellent service, our role as the SSA Office of the Inspector General (OIG) is to
recommend prudent courses of action that balance the Agency’s service and
stewardship responsibilities. Additionally, we make recommendations to improve the
effectiveness and efficiency of SSA operations. We believe these recommendations,
once implemented, would result in billions of dollars in savings for the Agency and the
U.S. taxpayer.

To its credit, and given the enormity and complexity of its mission, SSA generally
provides accurate and responsive service to millions of customers and continually seeks
improvements to its processes. We recognize that SSA’s resources are limited.
According to SSA, the Agency has been significantly under-funded for decades.
Additionally, its workload has increased through new legislative mandates and a
growing population of retiring and disabled constituents. As such, SSA has made
difficult decisions as to which workloads were its highest priorities and which received
less attention. Unfortunately, the aforementioned under-funding, increased workloads,
and the current economic downturn have resulted in severe backlogs in some critical
workloads—and, unacceptably long wait times for customers who seek SSA’s
assistance at some of the most challenging times in their lives.

This report will present a snapshot of what we believe to be SSA’s most critical
challenges, as well as some of its significant success stories. As the OIG, we
recommend improvements aimed to help the Agency meet its mission effectively and
efficiently, as well as to prevent fraud, waste, and abuse. We appreciate the opportunity
to provide our perspective on SSA’s operations and respond to the Committee’s specific
questions, and we hope our insight will assist the Committee in its oversight role.




Opportunities and Challenges for SSA (A-08-09-29152)                                       2
                                                                           Question 1
What programs or components are in need of management reforms to
reduce the level of improper payments or other forms of waste, fraud,
and abuse?
In our Fiscal Year 2008 Inspector General Statement on the Social Security
Administration’s Major Management Challenges, 1 we identified six areas that represent
significant management and performance challenges for SSA. These areas were

•   Social Security Number (SSN) Protection,
•   Management of the Disability Process,
•   Improper Payments and Recovery of Overpayments,
•   Internal Control Environment and Performance Measures,
•   Systems Security and Critical Infrastructure Protection, and
•   Service Delivery and Electronic Government.

In response to Question 1, our main focus will be on the Management Challenge
“Improper Payments and Recovery of Overpayments.” Additionally, we bring to your
attention a few other management reforms we believe are needed to cut costs and
ensure program goals are achieved. Our comments herein will echo many conclusions
we included in the Fiscal Year (FY) 2008 Management Challenges report, as well as
some new and important issues we believe warrant discussion.

At the Commissioner of Social Security’s (Commissioner) request, we issued a report in
FY 2007 recommending improvements to one SSA component, the former Office of
Disability and Income Security Programs. 2 We are pleased to report that the
Commissioner implemented many of our recommendations when restructuring this
component. While the Commissioner has also reorganized other SSA components
since his appointment in 2007, we have not reviewed these organizations in total.
Therefore, we have no recommendations for other SSA components that may need
reform. However, later in this report, we discuss longstanding inefficiencies in the Office
of Disability Adjudication and Review, which we believe deserve continued and close
scrutiny. Additionally, later in this report, we will discuss SSA’s Office of the Chief
Information Officer, which we believe needs additional resources and delegated
responsibilities to support the Agency’s security responsibilities (as defined by current
Federal laws, regulations, and requirements) and to meet the needs of future
challenges.




1
 See full report at http://www.ssa.gov/oig/ADOBEPDF/A-02-09-19074.pdf.
2
 Organizational Review of the Office of Disability and Income Security Programs, issued May 2007,
http://www.ssa.gov/oig/ADOBEPDF/A-12-07-27162.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                3
Improper Payments and Recovery of Overpayments

Work-Related Continuing Disability Reviews

In our April 2009 report, Follow-Up on Disabled Title II Beneficiaries with Earnings
Reported on the Master Earnings File, 3 we followed up on an earlier audit that
examined SSA’s treatment of Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries who had earnings reported to SSA, an event that is at least indicative that
the individual may no longer be eligible for benefits. In a FY 2004 audit report, Disabled
Title II Beneficiaries with Earnings Reported on the Master Earnings File, 4 we found that
$1.37 billion in overpayments resulted from SSA’s failure to identify about
63,000 disabled beneficiaries whose work activity resulted in earnings being posted to
the Master Earnings File between 1996 and 2000. In 2004, SSA implemented an
automated system called eWork to assist in controlling and processing work-related
continuing disability reviews (CDR). Our current review revisits this issue, and
assesses the success of SSA’s efforts in this area over the past 5 years.

Even though SSA has made efforts to reduce these overpayments, unfortunately, we
continue to find cause for concern. Based on the sample population we reviewed, we
estimated that approximately $3.1 billion was overpaid to about 173,000 beneficiaries
who had earnings reported between 2001 and 2006. While SSA identified about
$1.8 billion and approximately 141,000 of these beneficiaries, the remainder (about
$1.3 billion to approximately 49,000 beneficiaries) went undetected. We estimated that
about 24,000 of these approximately 49,000 beneficiaries were no longer entitled to
benefits, and that SSA will pay about $382 million to them over the 12 months following
our audit period if corrective action is not taken. In response to our report, SSA agreed
that, with the resources provided by the Recovery Act and the FY 2009 appropriations,
field offices will be able to reduce the pending workload levels, including work CDRs.

Medical CDRs

Like work-related CDRs, medical CDRs help prevent improper payments to
beneficiaries who are no longer disabled. However, fewer medical CDRs have been
conducted in recent years as SSA re-prioritized its workload to deal with budget
shortfalls and increasing initial claims.

For example, in our December 2006 report, Childhood Continuing Disability Reviews
and Age 18 Redeterminations, 5 we estimated SSA overpaid about $194.7 million in
Supplemental Security Income (SSI) payments to approximately 205,900 recipients
under age 18 because the Agency did not complete CDRs timely. We also estimated
that until these reviews were completed, the Agency would continue paying an
additional $96.9 million annually.


3
  See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-08-28075.pdf.
4
  See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-03-13019.pdf.
5
  See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-06-21093.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                        4
Because SSA was not performing timely reviews, we recommended, and the Agency
agreed, that it should conduct childhood CDRs at least every 3 years for children
under age 18 whose impairments are likely to improve in accordance with the Social
Security Act provisions 6 and continue to seek special funding for CDR workloads.
We also suggested that the Agency continue to publicly disclose facts to Congress
when it chooses to use its budgetary resources for purposes other than conducting
these reviews.

SSI Complexity and Reliance on Self-Reporting

Title XVI of the Social Security Act established the SSI program in 1972. SSI is a
nationwide Federal cash assistance program administered by SSA that provides a
minimum level of income to financially needy individuals who are aged, blind or
disabled. The program’s means-tested nature requires that individuals’ income,
resources, and living arrangements be assessed on a monthly basis for purposes of
determining eligibility and payment amounts.

Additionally, since 1996, legislation has been passed that impacted eligibility for SSI
payments—further complicating the program. For example, Congress enacted the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(Pub. L. No. 104-193), which prohibited SSI payments to fugitive felons and
parole/probation violators. The Foster Care Independence Act of 1999
(Pub. L. No. 106-169) established additional eligibility requirements for SSI payments.
For example, assets held in trusts are considered countable resources for SSI
purposes. Further, individuals who dispose of resources for less than fair market value
may be ineligible for SSI payments for a maximum period of 36 months.

The amount of a recipient’s SSI payment is based on many factors, including marital
status, income and resource levels, living arrangements, fugitive and prisoner status,
etc. Generally, SSA relies on SSI recipients to voluntarily report any changes.
However, because reporting such events may result in ineligibility for SSI payments,
there is little incentive for recipients to report them to SSA. Therefore, improper
payments, fraud, waste, and abuse occur.

In SSA’s FY 2008 Improper Payments Information Act of 2002 Detailed Report
(Improper Payments Report), the Agency disclosed that the SSI program resulted in
almost $4.6 billion in overpayments and underpayments in FY 2007, representing
10.6 percent of the $42.6 billion in SSI payments made during that year. Our audits
have highlighted many of the vulnerabilities in the SSI program, most resulting from the
complexity of the governing laws and regulations and the reliance on self-disclosure by
recipients who have a vested interest in maintaining the maximum amount of their
payments.

Annually, SSA calculates rates of SSI payment accuracy by determining the percentage
of SSI payments made that were overpaid or underpaid. Over the past several years,
6
    The Social Security Act § 1614(a)(3)(H), 42 U.S.C. § 1382c(a)(3)(H).


Opportunities and Challenges for SSA (A-08-09-29152)                                       5
this error rate has increased. In 1997, the error rate was 6.5 percent. As stated above,
in 2007, the SSI error rate was 10.6 percent—actually higher than the error rate that
existed in 1997 when the SSI program was placed on the Government Accountability
Office’s high risk list. 7 During this same period, the number of SSI redeterminations
declined from 1.7 million to 692,000.

Examples of improper SSI payments detected through our audits include the following.

•     In a May 2008 report, Supplemental Security Income Recipient Marriages Not
      Reported to the Social Security Administration, 8 we estimated that about
      2,088 recipients were overpaid approximately $24.8 million because they did not
      report their marriages to SSA. By stopping these payments, the Agency could save
      an estimated $7.1 million over the 12 months following our audit period.

•     In an ongoing audit, Supplemental Security Income Recipients with Unreported
      Vehicles, which we will issue soon, we estimated that SSI recipients were overpaid
      hundreds of millions of dollars because of inaccuracies in SSA’s records on the
      recipients’ vehicle ownership.

As a result of our findings, we made several recommendations to address the specific
issues identified. Additionally, as discussed in more detail later in this report, we
encourage SSA to seek broader solutions to the overarching concerns of complex SSI
laws and regulations and the Agency’s reliance on claimant attestations.

SSI Redeterminations

SSI redeterminations are a critical component of maintaining the integrity of the
program. As with some other SSA stewardship activities, resource limitations and other
factors have resulted in fewer redeterminations being conducted in recent years.
Redeterminations review SSI recipients’ non-medical eligibility factors, such as income,
resources, and living arrangements, to determine whether recipients are still eligible for
and receiving the correct SSI payment. As such, by performing periodic
redeterminations, the Agency may identify changes that have occurred since the SSI
recipient was first awarded benefits, which may reduce (or increase) the payment
amount.

The OIG recently initiated a review to evaluate the impact to the U.S. General fund as a
result of SSA conducting fewer redeterminations. In this review, we will determine the
lost savings for 2004 through 2009 resulting from SSA not conducting redeterminations
at historic levels, which preliminarily appear to be several billion dollars. Additionally,
our audits identified millions of dollars in SSI payments that SSA overpaid because
recipients did not report changes in their circumstances to SSA. These and other audits
detailed improper payments that may have been detected earlier through the
redetermination process.
7
    See full list at http://www.gao.gov/archive/1997/hr97001.pdf.
8
    See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-07-27109.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                       6
Examples of SSI overpayments detected during our audits follow:

•    In our April 2008 report, Supplemental Security Income Recipients with Automated
     Teller Machine Withdrawals Indicating They Are Outside the United States, 9 we
     estimated that overpayments totaling approximately $226.2 million to about
     40,560 recipients went undetected because SSA was unaware the recipients were
     absent from the United States. Additionally, we estimated SSA will not detect
     approximately $100.5 million in SSI payments each year following our audit period to
     recipients who are absent from the United States—unless the Agency takes action.

•    In our July 2008 report, Supplemental Security Income Recipients with Excess
     Income and/or Resources, 10 we estimated that overpayments totaling approximately
     $408.9 million went undetected because SSI recipients did not inform SSA of
     changes in income and/or resources. Additionally, we estimated that SSA will not
     detect approximately $169.2 million each year following our audit period if the
     Agency does not take action.

Workers’ Compensation Offsets

Receipt of workers’ compensation (WC) payments often results in a reduction (offset) of
Disability Insurance benefits payable to a disabled worker and the worker’s entitled
family members. Congress enacted the reduction (WC offset provision) to prevent
workers from receiving more in disability payments than they earned before becoming
disabled. However, administering the WC offset provision is complex and prone to
payment errors.

Many of the problems associated with this complex workload are due to human errors in
determining the correct rates and dates for the WC computations. Since 1998, we have
issued numerous audit reports on this subject, which have reported overpayments and
underpayments exceeding $1 billion. 11 SSA has taken corrective actions to “clean up”
cases involving WC offsets. However, recent OIG audit reports, as well as SSA’s
FY 2008 Improper Payments Report, still find that the complexity of WC offset
calculations is a major cause of improper payments in the OASDI program.

9
  See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-07-17036.pdf.
10
   See full report at http://www.ssa.gov/oig/ADOBEPDF/A-01-08-18022.pdf.
11
   Effects of State Awarded Workers’ Compensation Payments on Social Security Benefits, issued
September 1998, http://www.ssa.gov/oig/ADOBEPDF/9661013.pdf; Workers’ Compensation Unreported
by Social Security Beneficiaries, issued December 1999, http://www.ssa.gov/oig/ADOBEPDF/A-04-98-
64002.pdf; Pending Workers’ Compensation: The Social Security Administration Can Prevent Millions in
Title II Disability Overpayments, issued June 2003, http://www.ssa.gov/oig/ADOBEPDF/A-08-02-
12064.pdf; Management Advisory Report: Title II Disability Insurance Benefits with Workers’
Compensation Underpayment Errors Exceeding $70,000, issued July 2003,
http://www.ssa.gov/oig/ADOBEPDF/A-04-02-21054.pdf; Title II Disability Insurance Benefits with a
Workers’ Compensation Offset, issued November 2006, http://www.ssa.gov/oig/ADOBEPDF/A-04-05-
15133.pdf; Accuracy of Title II Disability Insurance Benefits Processed with Workers’ Compensation
Settlements, issued August 2008, http://www.ssa.gov/oig/ADOBEPDF/A-04-07-17059.pdf; and Accuracy
of Title II Disability Insurance Benefit Triennial Redeterminations for 2006, issued September 2008,
http://www.ssa.gov/oig/ADOBEPDF/A-04-07-17078.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                   7
In our audit reports, we recommended that SSA support legislation to simplify the WC
offset calculation, work with States to standardize the format in which WC data is
reported, and explore data exchanges with States that maintain automated WC
databases. Included in the President’s FY 2009 budget was a WC Offset simplification
proposal. One element of the proposal would have changed the amount of the offset to
a benefit reduction equal to the lesser of the worker’s monthly WC benefit or a flat
percentage (31 percent). By simplifying this offset calculation, we believe SSA can
reduce millions of dollars in future improper payments. We encourage SSA to continue
seeking legislation to reduce the complexity of WC offset calculations.

Windfall Elimination Provision and Government Pension Offset

The Social Security Act includes two provisions that reduce Social Security monthly
benefits paid to individuals who receive a pension based on Federal, State or local
government employment that was not covered by Social Security. The Windfall
Elimination Provision (WEP) eliminates “windfall” Social Security benefits for retired and
disabled workers receiving pensions from employment not covered by Social Security. 12
Under this provision, SSA uses a modified benefit formula to determine a wage earner’s
monthly Social Security benefit. 13 The Government Pension Offset (GPO) provision
reduces monthly Social Security benefits for spouses, divorced spouses, and surviving
spouses who receive a pension based on their own work for a Federal, State or local
government that was not covered by Social Security. 14 The GPO reduction is generally
equal to two-thirds of the government pension. 15 Dually entitled beneficiaries 16 are
subject to both the WEP and GPO provisions.

WEP computations and GPO were major causes of improper payments in the OASDI
program 17 during FYs 2003 through 2007. For this 5-year period, according to SSA’s
FY 2008 Improper Payments Report, WEP calculations were one of the leading causes
of computational-related underpayments and caused nearly 77 percent of
computational-related overpayments. Additionally, during FYs 2003-2007, errors
attributed to GPO accounted for 6 percent of all OASDI overpayments. In our
September 2008 review, Dually Entitled Beneficiaries Who are Subject to Government
Pension Offset and the Windfall Elimination Provision, 18 we estimated that SSA
overpaid about $270 million in retirement benefits to 8,500 beneficiaries because WEP
was not properly applied, and $185 million in spousal benefits to 8,460 beneficiaries


12
   The Social Security Act § 215(a)(7)(A), (d)(3), and (f)(9), 42 U.S.C. § 415(a)(7)(A), (d)(3), and (f)(9);
20 C.F.R. §§ 404.213 and 404.243.
13
   The Social Security Act § 215(a)(7)(B), 42 U.S.C. § 415(a)(7)(B); 20 C.F.R. § 404.213(c) and (d);
SSA, Program Operations Manual System (POMS), RS 00605.360.
14
   The Social Security Act § 202, 42 U.S.C. § 402; 20 C.F.R. § 404.408a.
15
   The Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a(d); SSA, POMS,
GN 02608.100.
16
   Dually entitled beneficiaries are individuals entitled to retirement benefits (based on their own earnings)
and spousal benefits (based on another person’s earnings) at the same time.
17
   The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
18
   See full report at http://www.ssa.gov/oig/ADOBEPDF/A-09-07-27010.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                         8
because GPO was not properly imposed. Further, unless SSA takes action to identify
and correct these payment errors, we estimate it will pay about $53.2 million in
overpayments annually.

The President's FY 2009 Budget included a proposal that would have improved the
administration of WEP and GPO by better coordinating reports of pension payments
based on employment not covered by Social Security. This change would have allowed
SSA to independently verify whether beneficiaries have pension income from
employment not covered by SSA. When a person applies for Social Security benefits,
SSA requires them to disclose whether they are receiving a pension based on
non-covered employment. SSA then obtains verification of the pension and applies the
WEP and/or GPO accordingly. However, SSA primarily relies on the applicant to
correctly inform the Agency that he/she is entitled to a non-covered pension. We
encourage SSA to continue seeking legislative improvements for the WEP and GPO
provisions.

Medicare Part D

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(Pub. L. No. 108-173), also known as the Medicare Modernization Act, established a
new, voluntary Part D Prescription Drug Program effective January 1, 2006. The
Medicare Modernization Act provides for certain low-income individuals to receive
Part D premium, deductible, and co-payment subsidies. SSA’s primary role is to
determine the applicant’s income, resources, and eligibility for a full or partial subsidy.

SSA stated Congress’ intent was for SSA to enroll, as quickly as possible, the maximum
number of eligible citizens into the subsidy for the prescription drug program. To
accomplish this, SSA developed a streamlined income and resource verification
process that relied heavily on applicant attestations under the penalty of perjury.
However, as with SSI, because reporting such information may result in ineligibility for
Medicare Part D subsidies, there is little incentive for recipients to report some
information to SSA. Therefore, improper payments, fraud, waste, and abuse occur.

In our February 2008 audit report, The Social Security Administration’s Income and
Resource Verification Process for Individuals Applying for Help with Medicare
Prescription Drug Plan Costs, 19 we determined that SSA income and resource
verifications for individuals applying for help with Medicare prescription drug plan costs
were not always effective. Specifically, we determined that SSA approved subsidies to
about 276,000 individuals whose income and/or resources appeared to exceed eligibility
limits, resulting in questionable Medicare Trust Fund Part D low-income subsidy
expenditures of about $473 million during a 12-month period. In addition, we found
SSA’s redetermination process is unlikely to be effective in terminating these
questionable subsidy approvals, resulting in additional estimated improper Medicare
Trust Fund expenditures of about $224 million over the 12 months following our audit
period. SSA agreed to evaluate its redetermination process and make any adjustments
19
     See full report at http://www.ssa.gov/oig/ADOBEPDF/A-06-06-16135.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                          9
necessary to better identify individuals no longer eligible for the subsidy. We will
monitor the status of these actions and may perform additional audit work to assess
whether these measures have increased the accuracy of Medicare Part D low-income
subsidy redeterminations.

Annual Earnings Test

In our August 2007 report, Improper Payments Resulting From The Annual Earnings
Test, 20 we determined that SSA did not adjust the benefit payments for all beneficiaries
who were subject to the annual earnings test. 21 As such, we estimated that for
Calendar Years 2002 through 2004, SSA overpaid about $313 million to
89,300 beneficiaries and underpaid about $35 million to 12,800 beneficiaries. These
payment errors primarily occurred because SSA did not process all records identified by
the Earnings Enforcement Operation (EEO). 22 Unless SSA takes corrective action to
process all future EEO selections, we estimated it will pay at least $104 million in
overpayments and $11 million in underpayments annually. Finally, we found that SSA
had a backlog of approximately 2 million unprocessed EEO selections for Calendar
Years 1996 through 2004.

We have an ongoing follow-up audit that is assessing SSA’s progress in resolving the
backlog of cases and will quantify the amount of improper payments for the affected
beneficiaries.

Payments After Death

Under both the OASDI and SSI programs, benefit payments to a beneficiary should
terminate once the individual dies. However, benefit programs are vulnerable to
payments after death due to the reliance on third parties for timely and accurate
information. SSA depends on a variety of sources for death information such as friends
and relatives of deceased individuals, funeral homes, financial institutions, and Federal
and State agencies.




20
   See full report at http://www.ssa.gov/oig/ADOBEPDF/A-09-07-17066.pdf.
21
   The Social Security Act § 203, 42 U.S.C. § 403 requires that SSA use an annual earnings test to
measure the extent of beneficiaries’ retirement and determine the amount to be deducted from their
monthly benefits. A beneficiary whose total annual earnings are equal to or less than the annual exempt
amount will receive full benefits for the year. According to SSA, POMS RS 02501.021, SSA is required to
reduce the benefit payments of those beneficiaries under full retirement age who earn an amount, in
wages or self-employment income or both, over the annual exempt amount.
22
   This process is designed to detect potential over- and underpayments for beneficiaries subject to the
annual earnings test.


Opportunities and Challenges for SSA (A-08-09-29152)                                                 10
Since June 2001, OIG has issued seven reports 23 addressing areas with weaknesses
that could allow payments after death. These reports address the validity and
timeliness of data from other Federal agencies and Organizational Representative
Payees, as well as deficiencies in SSA’s processing of data for benefits associated with
death entries removed from the primary wage earner’s record. These reports identified
about $77.5 million in improper payments made after the beneficiaries’ deaths.

In addition to updating processing instructions to improve the current death information
process, SSA is working with the U.S. Department of Health and Human Services
(DHHS), State governments, and other jurisdictions to promote a State-sponsored
Electronic Death Registration 24 (EDR) system. As of March 31, 2009, SSA receives
death data via EDR from 25 States, New York City, and the District of Columbia. Five
additional States plan to implement EDR by the end of FY 2010. A 2007 audit report 25
estimated that if SSA had realized the EDR implementation goals, the Agency could
have prevented $13.8 million in incorrect payments made after death to
12,173 recipients. While we acknowledge that the Intelligence Reform and Terrorism
Prevention Act of 2004 (Pub. L. No. 108-458) gave DHHS primary responsibility for
awarding grants to States so they may “computerize their death and birth records,” we
encourage SSA to continue its efforts to assist DHHS and other States in adopting
EDR.

However, even with EDR participation, our audits have noted other corrective actions
that should be taken to detect payments after death in a more timely manner. For
example, we urged SSA to process death alerts as expeditiously as possible, so that
payments made after a beneficiary’s death may be recovered quickly and future
payments can be ceased. Additionally, we encouraged SSA to periodically reconcile
death information posted to its Numerical Identification File (Numident) with beneficiary
records—to resolve discrepancies and ensure benefit payments are terminated for
deceased individuals or SSA’s Numident records are corrected when incorrect death
information is present.

23
   Match of Veterans Affairs’ Historical Death File Against the Social Security Administration’s Benefit
Rolls, issued June 2006, http://www.ssa.gov/oig/ADOBEPDF/A-01-05-35086.pdf; Organizational
Representative Payees Reporting Beneficiaries’ Deaths, issued April 2008,
http://www.ssa.gov/oig/ADOBEPDF/A-01-06-15068.pdf; Survivor Benefits Paid in Instances When the
Social Security Administration Removed the Death Entry From a Primary Wage Earner’s Record, issued
September 2006, http://www.ssa.gov/oig/ADOBEPDF/A-06-06-26020.pdf; Benefit Payments in Instances
Where the Social Security Administration Removed a Death Entry from the Beneficiary’s Record, issued
June 2008, http://www.ssa.gov/oig/ADOBEPDF/A-06-07-27156.pdf; The Social Security Administration’s
Controls and Procedures Over Supplemental Security Income Death Alerts, issued May 2007,
http://www.ssa.gov/oig/ADOBEPDF/A-09-06-16128.pdf; Old-Age, Survivors and Disability Insurance
Benefits Paid to Deceased Auxiliary Beneficiaries, issued June 2001,
http://www.ssa.gov/oig/ADOBEPDF/A-01-00-20043.pdf; and Follow-Up Review of Old-Age, Survivors and
Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries, issued June 2003,
http://www.ssa.gov/oig/ADOBEPDF/A-01-03-13037.pdf.
24
   EDR is a web-based automation of the death registration process with an online real-time SSN
verification process.
25
   The Social Security Administration’s Controls and Procedures Over Supplemental Security Income
Death Alerts, issued May 2007, http://www.ssa.gov/oig/ADOBEPDF/A-09-06-16128.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                 11
Representative Payee Oversight

When SSA determines a beneficiary cannot manage his or her benefits, SSA selects a
representative payee who must use the payments for the beneficiary’s needs. SSA
reports there are approximately 5.4 million representative payees who manage about
$54 billion in annual benefit payments for approximately 7.3 million beneficiaries. In
July 2007, the National Academy of Sciences (NAS) reported that SSA should take
steps to better prevent and detect misuse of beneficiary funds. NAS concluded that
SSA’s current methods to detect misuse of benefits are not reliable and identified
several characteristics of representative payees that may be potential indicators of
misuse or poor performance. Finally, NAS recommended that SSA conduct targeted
reviews of those representative payees most likely to misuse benefits. Our office has
an ongoing audit that will determine whether SSA should use the NAS characteristics to
identify representative payees with an increased risk of benefit misuse.

In the past year, our audits have identified issues with representative payees such as
deficiencies with accounting for benefit receipts and disbursements, lack of effective
controls over the receipt and management of funds, improper retention of
overpayments, poor monitoring and reporting to SSA of changes in beneficiary
circumstances, and inappropriate handling of beneficiaries’ conserved funds. Although
the improper payments resulting from poor representative payee oversight may not rise
to the levels of other SSA programs, our audits and investigations have shown that
insufficient monitoring and control over beneficiary funds causes this to be a high-risk
area—prone to fraud, waste, and abuse. As such, we remain concerned about the
representative payee program and have focused significant audit resources to identify
potential solutions for this sensitive area.

In recent audits, we made numerous recommendations to ensure representative payees
meet their responsibilities to the beneficiaries in their care. These included
recommendations to improve controls over reporting changes in beneficiary
circumstances that cause benefit overpayments, return conserved funds to SSA for
beneficiaries who are no longer in their care, and maintain accurate accounting records
of benefit receipts and disbursements. SSA generally agreed with our
recommendations and has initiated corrective actions. However, to help prevent future
occurrences, we encourage SSA to increase its representative payee monitoring for
poorly performing representative payees.

Collection of Overpayments

SSA overpayments generally comprise benefit payments exceeding amounts to which
beneficiaries are entitled. With few exceptions, overpaid individuals are responsible for
repaying the overpayments. In FY 2007, SSA reported overpaying beneficiaries
$5.1 billion, or about 0.8 percent of the approximately $619 billion SSA paid to
beneficiaries that year.




Opportunities and Challenges for SSA (A-08-09-29152)                                    12
In FY 2008, SSA collected $2.81 billion in program debt. Collection techniques included
internal methods, such as benefit withholding, billing, and follow-up. SSA also used
external collection techniques authorized by the Debt Collection Improvement Act of
1996 (Pub. L. No. 104-134) for OASDI debts and the Foster Care Independence Act of
1999 (Pub. L. No. 106-169) for SSI debts. These debt collection tools include the
Treasury Offset Program (TOP), credit bureau reporting, administrative wage
garnishment (AWG), and Federal Salary Offset.

In numerous audits, we found that the effectiveness of SSA’s efforts to collect
overpayments could be improved. While SSA generally followed its procedures for
billing and contacting delinquent debtors, it did not pursue other recovery methods
available for all eligible cases. We found that TOP and AWG were effective tools for
collecting outstanding debt from delinquent debtors, but were not pursued for all eligible
debtors. We also found that SSA had not fully implemented its cross-program authority
as authorized under the Social Security Protection Act of 2004 (Pub. L. No. 108-203).
SSA also did not always adjust overpayment balances when it issued certain critical
payments.

In response to a draft of this report, SSA stated that, in August 2008, it implemented a
software change, which selects all eligible cases for referral to TOP. Further, SSA
stated that additional enhancements to its automated debt collection tools are planned
as information technology resources become available and are approved for
development. We are currently performing several follow-up audits to determine
whether corrective actions SSA agreed to implement have helped improve the
effectiveness of the Agency’s overpayment collection efforts.

Common Themes and Potential Management Reforms:
Improper Payments and Collection of Overpayments
When examining SSA programs with significant improper payments or insufficient debt
collection practices, we noted several overarching themes—or “causes”—for the
vulnerabilities identified. Accordingly, the following sections outline management
reforms we believe address these causes, but which may require SSA and/or
congressional action.

Limited Resources, Increasing Workloads, and Prioritization of Work

As discussed further in response to Question 4, SSA reports that it has been
significantly under-funded for a number of years. At the same time, its workloads have
increased—through additional retirement and disability applications, as well as new
congressional mandates (for example, processing millions of Medicare Part D subsidy
applications and expanded participation in employee eligibility verification programs).
Given the Agency’s resource limitations, it made tough decisions in prioritizing its
workload. However, in our opinion, such decisions have sacrificed stewardship
activities and increased improper payments. To better balance the Agency’s
stewardship and service missions, we support a legislative proposal, which is being


Opportunities and Challenges for SSA (A-08-09-29152)                                    13
reviewed within the Agency, to create a self-funding program integrity fund as described
below. We believe this is an innovative and budget-neutral plan and strongly encourage
the Agency and Congress to consider authorizing this initiative.

Self-Funding Program Integrity Fund

As part of its post-entitlement work, SSA engages in a number of program integrity
activities. These activities are designed to ensure proper expenditure of trust fund and
general fund resources for the OASDI and SSI programs. Two of the Agency’s key
program integrity activities are CDRs (both periodic medical reviews and those triggered
by work activity) and redeterminations of nonmedical factors of eligibility in the SSI
program. Through both of these activities, SSA periodically reassesses beneficiaries’
continuing eligibility for benefits and, in the case of redeterminations, corrects monthly
payment amounts for those whose eligibility continues.

Although the return on investment is high for this work, SSA resource limitations and its
decision to give higher priority to other workloads have resulted in a drastic decrease in
program integrity activities. The Contract with America Advancement Act of 1996
(Pub. L. No. 104-121) provided funding for CDRs from 1996 to 2002. Since that funding
expired, however, medical CDRs have decreased over 60 percent, from over 679,000 in
2003 to fewer than 250,000 in 2008. The backlog, as of the end of FY 2008, was
reported at 1.4 million CDRs, and SSA estimates that the backlog will reach about
1.6 million by the end of this FY. Redeterminations decreased more than 50 percent
during the period 2003 to 2008.

To help ensure SSA has the resources to perform this critical work, we support a
legislative proposal to create a self-funding program integrity fund. This proposal was
drafted by SSA and, as of June 2008, contained the following two elements.

• Provide authority for SSA to expend a portion of actual collections of erroneous
  payments on activities to prevent, detect, and collect erroneous payments.
  Specifically, the proposal would establish permanent indefinite appropriations,
  subject to Office of Management and Budget (OMB) apportionment, to make
  available to SSA up to 25 percent of the actual overpayments collected during the
  base FY and make available to OIG up to 2.5 percent of the same collected
  overpayments.

• Establish a revolving fund that would be financed from SSA’s stewardship/program
  integrity activities’ projected lifetime savings. That is, SSA would be permitted to
  deposit up to 50 percent of the estimated future lifetime program savings from
  processing program integrity activities such as (but not limited to) CDRs, SSI
  redeterminations, Cooperative Disability Investigation Units, and Special Office of the
  General Counsel prosecutions. The Commissioner would be authorized to fund
  initiatives that would yield at least a 150 percent return on investment within a
  10-year time period. This proposal would link budgeting for cost-effective program
  integrity activities with their results.



Opportunities and Challenges for SSA (A-08-09-29152)                                      14
Program Complexity

Many of the laws and regulations governing SSA programs include complex nuances
that, when interpreted, result in payment inaccuracies. As discussed earlier, the SSI
program, WC offsets, and WEP/GPO have a myriad of provisions that involve human
interpretation and computation. We believe that the inherent subjectivity in interpreting
complex rules, mixed with a degree of intrinsic human error, contributes to the
significant payment errors in these workloads.

Although reforms aimed at simplifying SSA programs are undoubtedly difficult to
implement, we believe reducing the complexity of these programs, without sacrificing
their intent, would help reduce millions of dollars in improper payments that occur each
year. Legislative proposals were included in the President’s 2009 budget aimed at
addressing the complexity of cases involving WC offset and WEP/GPO. We encourage
SSA to continue forwarding and supporting such legislative proposals. Also, we believe
future consideration should be given to seeking congressional support to simplify the
SSI program.

Reliance on Claimant Self-Reporting and Obstacles to Obtaining Data
Verifying Claimant Assertions

To ensure the accuracy of critical benefit determinations, SSA personnel need more
and better information—in real time. We believe SSA bases too many decisions on
applicant assertions, without the necessary data to support their claims. For example,
many of SSA’s decisions rely on information about a person’s age, identity, citizenship
status, marital status, earnings—and, even whether the claimant or beneficiary is
actually alive. Although SSA reviews some documentation supporting applicants’
assertions (for example, birth certificates, immigration documents, marriage licenses), to
adequately verify the authenticity of the assertions and documentation, SSA must rely
on other Federal, State, local and private entities for such information. However, all too
often, such information is not available in a real-time, online basis.

Examples follow:

• Vital statistics information on births, deaths, marriages, and divorces are maintained
  at the State and local level. This information is especially important to ensure
  accuracy in SSI calculations and prevent payments after death. While SSA has been
  actively working for years to develop online automated access to State vital statistics
  information, the Agency stated that State progress in providing access to this
  information has been slow.

• Earnings data is generally made available to SSA annually. Because of this delay,
  timely earnings information is not available for determining initial or continued benefit
  eligibility. All of the benefit programs SSA administers rely on workers’ earnings. As
  such, improvements in the timeliness of such information would improve the accuracy
  of SSA’s decisions and decrease improper payments.


Opportunities and Challenges for SSA (A-08-09-29152)                                    15
• Information from other Federal agencies (the Department of Veterans Affairs, the
  Department of Homeland Security, etc.) often impact SSA benefit determinations.
  However, the current processes for sharing this information, which generally are
  governed by the Computer Matching and Privacy Protection Act of 1988
  (Pub. L. No. 100-503) and the Privacy Act of 1974 (Pub. L. No. 93-579), often make
  these exchanges cumbersome and difficult. We believe the Federal Government
  should exchange critical information with more ease to prevent improper
  payments—while still ensuring the protection and privacy of our constituents.

• Information from third-party sources may also provide valuable information for benefit
  eligibility determinations. Currently, SSA allows its field offices Internet access to a
  global service that provides information to Government, corporate, legal, and
  academic markets. The database is an optional tool for SSA field offices, which can
  be used to obtain resource information for SSI applicants and recipients. While
  information obtained from this database may not be used to deny or suspend
  benefits, it may be used as a “lead” for further claimant discussion and review. SSA
  field offices may only use this database when they suspect certain circumstances
  exist that may impact a claimant’s eligibility for benefit payments. 26 However, we
  believe, with proper controls, such technology shows promise in preventing and
  reducing SSA improper payments. In fact, in an audit report we plan to issue soon,
  we noted that the use of this database may help determine the accuracy of SSI
  recipients’ allegations about vehicle ownership. In the report, we plan to recommend
  that SSA assess the costs and benefits of requiring use of this database for SSI
  applicants and recipients who may be less likely to report vehicle ownership.

     The potential for success in using third-party sources to provide relevant and timely
     data was also recognized in an SSA study using a web application to obtain
     electronic asset verification from financial institutions. 27 The study findings indicated
     that using bank information could assist the Agency in identifying and verifying assets
     of SSI applicants and thereby prevent payments to individuals who exceed the asset
     limits. The project is expected to have a $10 to $1 return on investment but, so far,
     the Agency has not attempted to implement this project on a national basis because
     of resource limitations. Although we cannot currently substantiate the study finding,
     we plan to review the study results and evaluate the related cost/benefit of expanding
     the pilot nationwide. We plan to issue a report by the end of FY 2010.




26
   SSA POMS SI 01140.105, Electronic Resource Information.
27
   SSA Office of Quality Performance report, Evaluation of the New York Bank Account Study and Access
to Financial Institutions, November 2006.


Opportunities and Challenges for SSA (A-08-09-29152)                                              16
OTHER MANAGEMENT REFORMS NEEDED

Ticket to Work

In our August 2008 report, Ticket to Work and Self-Sufficiency Program Cost
Effectiveness, 28 we concluded that the Ticket to Work program, which was established
to promote the economic self-sufficiency of disabled beneficiaries, did not appear to
significantly increase the percentage of disabled beneficiaries who returned to work.
The Congressional Budget Office (CBO) projected that the Ticket to Work Program
would reduce annual payments to beneficiaries by $7 million, $27 million, and
$60 million in FYs 2004, 2005, and 2006, respectively. In FY 2009, the reduction in
outlays due to the Ticket Program was projected to be $110 million.

Based on our analysis of savings for the Program participants we reviewed and the
additional costs incurred due to the Ticket Program, it does not appear that SSA
realized the savings projected by CBO. Our study found that the Ticket Program has
not significantly increased the rate at which disabled beneficiaries return to
work—remaining at about one-half of 1 percent through 2006. Therefore, while the
Ticket to Work Program cost SSA $138 million annually, it has not realized the
outcomes and savings envisioned by Congress. As such, we believe SSA and
Congress should evaluate the continued viability of this program. And, more broadly,
SSA and Congress should work together to develop strategies to help more disabled
beneficiaries return to work.

Information Systems Planning, Development, and Oversight

Information systems are a key factor in the Agency’s ability to carry out its initiatives. As
such, the planning, management, and oversight of information technology (IT)
development has become increasingly important. In lean times, resources must be
directed to projects that yield optimal efficiency and effectiveness.

Within the past 2 years, we conducted audits of SSA’s Information Resources
Management (IRM) Strategic Planning 29 and Exhibit 300 report processes. 30 We also
determined whether SSA obtained the intended value from its IT projects. 31 Overall, we
found that SSA had made reasonable efforts to manage its major IT projects; however,
there are areas the Agency needs to improve.




28
   See full report at http://www.ssa.gov/oig/ADOBEPDF/A-02-07-17048.pdf.
29
   The Social Security Administration’s Information Resources Management Strategic Plan,
issued September 2007, http://www.ssa.gov/oig/ADOBEPDF/A-14-07-27133.pdf.
30
   Reliability and Accuracy of the Social Security Administration’s Exhibit 300 Submissions to the Office of
Management and Budget, issued September 2008, http://www.ssa.gov/oig/ADOBEPDF/A-14-08-
18018.pdf.
31
   Social Security Administration’s Management of Information Technology Projects, issued July 2007,
http://www.ssa.gov/oig/ADOBEPDF/A-14-07-17099.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                     17
SSA needs to establish a long-range IRM strategic planning process that covers a
period consistent with the Agency’s Strategic Plan. An improved plan would help
SSA better direct its IT resources and ensure IRM decisions are integrated with
organizational planning, budget, procurement, financial management, human resources
management, and program decisions. According to OMB, an IRM Plan should support
the Agency's Strategic Plan, which must cover a minimum of 5 years. Currently, SSA’s
IT planning process and performance goals cover only 2 years—even though some IT
projects approved by SSA management have life spans beyond that period. However,
in response to a draft of this report, SSA reported that the Agency has developed an
IRM Strategic Plan for FYs 2009 through 2014, which is in the review process.

Other Federal agencies, such as the Farm Credit Administration and the Bureau of
Land Management, have IRM Plans that include long-term planning for their system
development projects. Although these are smaller agencies, we believe a similar
practice would be beneficial to SSA.

SSA needs to ensure IT investments are properly evaluated for costs and
benefits; and that these results influence IT budget decisions. SSA and OMB use
the Exhibit 300 reporting process to plan and monitor IT project investments. These
reports include estimated costs and projected benefits. SSA’s IT planning needs to
ensure the best available data are used to estimate project costs and anticipated
benefits. Our work found that SSA did not use the most accurate data and estimates
available to prepare its Exhibits 300. Furthermore, the Exhibit 300 reporting process did
not ensure that budget estimates were free of error and supported with complete
documentation. In response to a draft of this report, SSA reported that the Agency has
added reviews to help ensure it discovers and corrects errors in a timely manner.

SSA needs to develop an effective process to complete post-implementation
reviews (PIR). These reviews would independently verify IT investment results after a
project is completed to ensure the functionality and cost savings were ultimately
achieved. At SSA, the Information Technology Advisory Board (ITAB) is the governing
body for its IT planning process and is responsible for the development of the Agency IT
Systems Plan. SSA’s ITAB evaluates functionality, return on investment, and cost
savings information to formulate its decisions during the IT planning process. However,
IT investment results have not been independently verified after project completion to
ensure that the functionality and cost savings were ultimately achieved.

As a part of the Agency’s ITAB process, SSA typically estimates the potential number of
full time equivalents (FTE) and related dollar savings that will result by implementing IT
projects. As indicated in the chart below, in FYs 2007 through 2009, SSA reported that
between 58 and 84 new and continued projects would save at least 68,650 FTEs over a
7-year period. The projected dollar savings for these projects were significant—ranging
from about $10 to $20 billion over a 7-year period.




Opportunities and Challenges for SSA (A-08-09-29152)                                    18
                           SSA’s Return on Investment Summary
                   Savings Reflect the Total Savings Over a 7-Year Span
                                                      Total FTE Savings                   Net
                                      Number of          for Projects                    Dollar
                       Total      Projects (New and        (New and                  Savings for
 Fiscal Year          Projects      Continued) with       Continued)                   the Total
Cost Savings         (New and     FTE Savings over With FTE Savings                    Projects
 Estimated          Continued)            100               over 100                 (in Millions)
    2007                195                58                70,121                     $12,444
    2008                196                84                80,516                     $20,771
    2009                189                67                68,650                     $10,591

While the projected FTE and dollar savings are impressive, we are concerned that
these estimates are not realistic and do not reconcile to SSA’s annual productivity
statistics. For example, if SSA saves almost 70,000 FTEs over a 7-year period, the
Agency ostensibly could use 10,000 FTEs each year to increase productivity in other
SSA workloads. Using 10,000 of the Agency’s approximately 60,000 FTEs (or
17 percent) for other workloads should result in significant productivity increases in
areas that may have been previously neglected because of a lack of resources. Yet, in
FY 2007, SSA recorded a productivity increase of only about 2 percent. While this may
be a simplistic example of a far more complex process, the disparity between the
projected FTE savings and actual productivity increases is marked.

Accordingly, we believe PIRs would enable the ITAB to determine whether many of the
IT projects it assessed and approved resulted in SSA achieving the projects’
functionality and cost savings. Furthermore, without verification of this information, the
ITAB cannot demonstrate that the Agency is receiving value for its IT investments. In
response to a draft of this report, SSA stated that, beginning in April 2009, it will have a
process in place to ensure PIRs are performed on incremental releases of larger
projects.

SSA needs to carefully plan its eServices to meet the needs of its customers,
while maintaining strong security measures. Although SSA has had a longstanding
history of providing face-to-face service, given budget constraints, opportunities
provided by technology, and changing service expectations of the public, it is realistic
and desirable that SSA continues to expand its provision of electronic services. At the
end of FY 2007, SSA was offering 17 eServices to the public. One of these services,
the Internet retirement application, has been available for about 8 years. As of
March 28, 2008, only 13.6 percent of SSA's FY 2008 retirement applications were filed
online. In response to a draft of this report, SSA stated that the Agency has realized
major increases in the use of eServices since that time. Specifically, retirement and
disability claims filed online increased to 34.3 percent and 22.8 percent, respectively.
And, by mid-April 2009, the number of Internet claims surpassed the total number filed
online during all of FY 2008. SSA attributed this increase to its new streamlined Internet
application released in December 2008 (iClaim) and an aggressive public information
campaign.


Opportunities and Challenges for SSA (A-08-09-29152)                                       19
Studies have shown that the public wants to conduct more business via the Internet and
the E-Government Act of 2002 (Pub. L. No. 107-347) requires that Federal agencies
provide more Internet services when practicable. SSA has plans to increase the use of
its Internet retirement application and expand its online services. However, SSA must
overcome several challenges to meet its Internet services goals, including increasing its
use, implementing planned enhancements, and addressing critical issues related to
security.

To that end, we support the Agency in its efforts to take advantage of technology to
make work processes more efficient and provide the responsive service the public
expects. In an August 2008 report, 32 we highlighted authentication expansion and
improved system infrastructure as two critical issues that SSA must address to
successfully expand and increase the use of eServices. First, given the future
enhancements and the nature and sensitivity of information maintained in SSA’s
systems, it is imperative that Agency employees know with whom they are doing
business, regardless of contact method (in-person, on the telephone or online). This is
increasingly important in an online environment because authentication plays a key role
in any expansion of eServices. Successful expansion of electronic authentication is
essential for the Agency to completely automate processes, such as enumeration,
disability, and SSI claims.

Second, use of SSA’s eServices has been negatively impacted in the past by
unexpected system outages. After an outage, it is difficult for an organization to regain
the confidence of its users, resulting in lower usage and negative publicity. Although
SSA indicated it has made changes to improve the availability and stability of its Internet
applications, we believe a continued focus on preventing such outages is important as
SSA expands its eServices. To that end, we believe it is important for SSA to remain
vigilant and ensure that all systems related to eServices as well as those that could
impact them (other processes that can consume computer resources or network
capacity) are tested to ensure they do not unexpectedly terminate and prove they can
handle additional workload as more of the public begins to use the new eServices
provided. All systems should be closely monitored after implementation to identify and
correct anomalies as soon as possible so system outages do not occur.




32
   Quick Response Evaluation: The Social Security Administration’s Electronic Government Services,
issued August 2008, http://www.ssa.gov/oig/ADOBEPDF/A-14-08-28113.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                 20
                                                                              Question 2
To what extent does the Agency provide the public—including beneficiaries,
claimants, and workers—with timely and accurate service? Are there deficiencies
in particular areas?

SSA and its employees touch the lives of almost every U.S. citizen. For many, this
interaction occurs at critical times, such as the death of a loved one, a disabling illness
or a desire to retire. Despite daunting challenges, SSA provides timely and accurate
services for many individuals seeking SSA assistance. Annually, SSA pays over half a
trillion dollars to its beneficiaries, who in FY 2008 totaled almost 60 million. In FY 2008,
SSA accomplished other significant workloads. Examples of approximate workloads
are as follows.

•    4.2 million retirement and survivor’s insurance applications;
•    2.6 million initial disability claims;
•    900,000 Medicare Part D, Low-Income Subsidy applications;
•    320,000 SSI-aged applications;
•    18 million Social Security number (SSN) card applications;
•    270 million employer and self-employment earnings reports;
•    1 billion SSN verifications for third parties;
•    60 million callers to its National 800 number; and
•    44 million visitors to its field offices.

Nevertheless, the Agency faces unacceptable processing times and backlogs in the
disability area. Additionally, weaknesses exist in the Agency’s National 800 number
service, which impact SSA’s ability to provide timely and accurate service. Further, the
Commissioner recently stated that, even with all available field office employees and
managers devoted to servicing visitors, waits are long.

We generally addressed the accuracy of SSA’s services in response to Question 1.
Accordingly, the remainder of our response to this question will focus on the timeliness
of SSA’s services.

Timeliness of Disability Claims Processing

In a December 2008 audit, Disability Claims Overall Processing Times, 33 we
determined how long it took, on average, for a claimant to go through the entire
disability process—in Calendar Year 2006—from the date he or she filed an application
until the date SSA denied the claim or awarded the claim and issued the benefits due.
This processing time, based on the claimant's perspective, may amount to years, during
which a claimant’s condition may worsen or additional evidence may become available.


33
     For full report see http://www.ssa.gov/oig/ADOBEPDF/A-01-08-18011.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                      21
As a result, he or she may be denied benefits at one adjudicative level and later allowed
at another adjudicative level.

While our measure tracks the time it takes a person to go through the entire process,
SSA’s measures track the time it takes a person to go through specific segments of the
disability process for the purpose of managing workloads within each component. Our
overall average disability processing times are illustrated in the following chart (these
processing times are cumulative—not incremental.) Additionally, it should be noted that
only a small number of cases are subject to every level of adjudication. For example, in
Calendar Year 2006, over 2.6 million cases were decided at the Disability Determination
Services (DDS) level (initial and reconsideration decisions). However, only about
8,100 cases were decided at the Federal Court level. 34


                                      Average Overall Disability Processing Times

     2000


     1800                                                                                            1720


     1600


     1400


     1200
                                                                                    1053

     1000                                                                                                        Days

                                                                 811
      800


      600


      400
                                           279

      200            131


       0
                  Disability        DDS Reconsideration   Administrative Law   Appeals Council   Federal Court
            Determination Services'     Decisions          Judge Decisions       Decisions        Decisions
            (DDS) Initial Decisions



We believe that the processing times determined in this review may assist SSA and the
Congress in making decisions about the disability programs—which is especially

34
  For the purposes of our report, the average processing time for “Federal Court Decisions” includes
decisions made by Federal District Courts, Circuit Courts of Appeals, and the Supreme Court of the
United States.


Opportunities and Challenges for SSA (A-08-09-29152)                                                                22
important in light of the increasing number of baby-boomers entering their
disability-prone years.

According to SSA’s Strategic Plan, “[the Agency’s] effectiveness will be determined by
how well [SSA] meets the needs and expectations of the American people. Its success
will also be measured by how we manage resources to provide services and benefits in
a way that is responsive to the American public.”

We recommended SSA develop and publish a measure that shows the overall disability
processing time from the claimant’s perspective. In response to the recommendation,
SSA stated the following.

    We agree that there would be a benefit to the agency, Congress, the public, and
    prospective disability claimants. However, we have concerns about implementing
    this additional performance measure. For example, an overall processing time
    measure portrays a "worst case scenario" where the claimant proceeds through all
    levels of appeal, which occurs in a relatively small handful of cases, but some
    observers may cite the measure as applying to all cases. An additional complication
    is that multiple components have different pieces of the overall processing time;
    these components use different systems to collect and report disability
    process-related data. It would also be difficult to define the reporting period
    because claims that go deep into the appeals process often are pending for
    extremely long periods of time, and much of this time is not within our control. While
    we agree with the intent of this recommendation, we must fully consider and
    address these issues before adopting an overall processing time measure.

The OIG will most likely conduct this type of review again in a few years to calculate
Disability Insurance processing times from the claimants’ perspectives.

Disability Hearings Backlog

The Office of Disability Adjudication and Review (ODAR) is responsible for holding
hearings and issuing decisions as part of SSA’s process for determining whether a
person may receive benefits. ODAR directs a nationwide field organization staffed with
about 1,200 Administrative Law Judges (ALJ), who conduct impartial hearings and
make decisions on appealed determinations involving retirement, survivors, disability,
and SSI. ALJs are supported by hearing office staff who conduct initial case screening
and preparation; maintain a control system for all cases in the hearing office; conduct
prehearing case analyses; develop additional evidence; schedule hearings; and write,
type, and send notices and decisions to claimants. With over 500,000 decisions issued
each year, ODAR is considered one of the largest administrative judicial systems in the
world.

SSA’s disability programs have grown significantly over the last 5 years and will
continue to do so at an increasing rate as (1) aging baby boomers reach their most
disability-prone years and (2) the struggling economy has increased the disability claims
caseload by about 10 percent more than SSA had projected and budgeted. As a result,
the backlog of cases awaiting a decision from an ALJ has risen from over 463,000 at


Opportunities and Challenges for SSA (A-08-09-29152)                                         23
the end of FY 2002 to approximately 765,000 currently. This also results in individuals
waiting on average about 500 days to receive a disability decision—an increase of
about 200 days in the last 7 years.

Eliminating the hearings backlog is one of SSA’s top priorities. Consequently, the
Commissioner recently testified that the Agency hired 190 ALJs and support staff using
FY 2008 funds and will hire more in FY 2009. In addition, SSA established a goal that
all ALJs process 500 to 700 cases each year and plans to eliminate the backlog by
2013. However, the overall average in FY 2007 was 474 dispositions per ALJ. In fact,
57 percent of the ALJs issued 500 or fewer dispositions. Unless SSA is able to
increase the number of hearing dispositions, the backlog of cases will increase, rather
than decrease, over the next several years.

SSA’s success in reducing the backlog of cases depends on many factors, including its
ability to hire additional ALJs and support staff and the successful implementation of
numerous backlog-reducing initiatives. SSA has undertaken 37 initiatives to eliminate
the backlog and prevent its recurrence. In a prior OIG review, 35 we identified factors
impacting ALJ productivity. These factors related to adjudicatory capacity, hiring
additional ALJs and staff, new automation, remanding cases to DDSs, and quality
assurance improvements.

Although significant changes have been made to SSA’s hearings and appeals
component, given long-standing issues, SSA’s progress in reducing the backlog should
be closely monitored. Inaction or ineffective action by SSA could significantly hinder its
ability to reduce the backlog of disability cases and, in fact, could result in an increase in
the backlog and longer waiting times for potential beneficiaries.

SSA’s National 800 Number

SSA has approximately 6,500 employees across the country trained to answer National
800 Network calls. In FY 2006, SSA reported that there were about 59.5 million
transactions handled by the network. However, in 2007, 36 we identified opportunities
for improvement. We established that management needs a system to identify callers
with unsuccessful outcomes in the automated system, determine if and why its
automated options have low completion rates and take necessary steps to improve the
service provided. We also recommended that SSA develop quantitative performance
measures and goals to measure the effectiveness of the automated service system.
Improvements in the automated service provided on SSA’s National 800 number
service may reduce the number of callers requiring assistance from a live teleservice
center agent.



35
   Congressional Response Report: Administrative Law Judge and Hearing Office Performance, issued
August 2008, http://www.ssa.gov/oig/ADOBEPDF/A-07-08-28094.pdf.
36
   The Effectiveness of the Social Security Administration’s 800-Number Automation Service, issued
October 2007, http://www.ssa.gov/oig/ADOBEPDF/A-02-07-17049.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                             24
The Commissioner recently testified that the Agency’s inability to hire staff has
contributed to teleservice centers’ deterioration in service. The Commissioner indicated
nearly 15 percent of callers to SSA’s National 800 number receive a busy signal. As a
result, many of the customers who were unable to conduct their business over the
National 800 number chose to go to their local field office, which contributed to the
higher field office waiting time.

In response to a draft of this report, SSA stated that it will soon conduct an analysis of
how to measure unsuccessful outcomes in the automated system. The analysis will be
part of a broader study reviewing automated services as a whole, how to best measure
their effectiveness, and how to improve the services the Agency provides to the public.

Field Office Wait Times

Between FYs 2005 and 2007, SSA’s customer satisfaction rating dropped. Reduced
field office staffing may have contributed to the continued increase in customers’ waiting
times in field offices. According to the Commissioner, the Agency’s online filing
percentages will need to increase to 50 percent within the next 5 years “to keep field
offices from being totally overwhelmed.”

The Commissioner recently testified that field offices have steadily experienced an
increase in the number of visitors. In FY 2008, field office visitors averaged 854,000 per
week. However, in February 2009 alone, field offices helped an average of over
940,000 visitors per week, and SSA expects this upward trend to continue throughout
FY 2009. According to SSA, this upward trend is due, in part, to the current economic
downturn, which is leading many individuals to apply for retirement or disability
payments. The Commissioner testified that even with all available field office
employees and managers serving the visitors, waits are long.




Opportunities and Challenges for SSA (A-08-09-29152)                                     25
                                                                         Question 3
What programs or components exemplify efficient and effective operations?

To its credit, every month, SSA correctly and timely pays billions of dollars to millions of
entitled beneficiaries. While improvements are needed in some critical areas, we
readily acknowledge that this is an enormous feat. Additionally, the following programs
or components are examples of efficient and effective SSA operations.

Cooperative Disability Investigations Program

SSA’s Cooperative Disability Investigations (CDI) program, created in FY 1998, is a joint
anti-fraud initiative that identifies and prevents fraud in the Agency’s disability programs
and related Federal and State programs. This initiative relies on the combined skills
and specialized knowledge of SSA's OIG, SSA, State DDSs, and State or local law
enforcement personnel. Since its inception, the CDI units 37 are responsible for over
$1 billion in projected savings to SSA’s disability programs and approximately
$665 million in projected savings to non-SSA programs.

Enumeration Program

SSA continues to make enhancements to its enumeration process to help ensure the
Agency is properly assigning SSNs. Some of SSA’s more notable enumeration
improvements include the following.

•    Verifying most immigration documents before assigning SSNs to noncitizens.

•    Establishing Social Security Card Centers, 38 which focus exclusively on assigning
     SSNs and issuing SSN cards.

•    Requiring that field office personnel who process SSN applications use the Agency’s
     SS-5 Assistant, a Microsoft Access-based application intended to increase control
     over the SSN application process. This program provides field office personnel
     processing SSN applications structured interview questions and requires certain
     data to complete the application process. Additionally, SSA plans to implement a
     web-based enumeration system known as the SSN Application Process. According
     to SSA, the phased-in release of this process in scheduled for August 2009.




37
  As of FY 2009, there are 20 CDI Units.
38
  SSA’s SSN Card Centers are located in Phoenix, Arizona (Downtown and North); Orlando, Florida;
Las Vegas, Nevada; Sacramento, California; and Brooklyn and Queens, New York.


Opportunities and Challenges for SSA (A-08-09-29152)                                               26
The Office of the Chief Actuary

The Office of the Chief Actuary (OACT) performs financial evaluations of the Social
Security program and makes proposals to change the program. OACT studies both the
immediate and long-range problems of financing program costs, estimates future
workloads, and evaluates operations of the Federal Old-Age and Survivors Insurance
Trust Fund and the Federal Disability Insurance Trust Fund. Over the years, data,
assumptions, and methodologies used in these financial evaluations have been
provided to experts both inside and outside Government for their use and review. The
work of OACT has been reviewed on a regular basis by outside panels. These experts
and panels have found OACT’s work sound and its staff highly competent.

Agency Responses to Natural Disasters and Terrorist Attacks

SSA has consistently taken proactive steps to ensure continued service delivery to
affected individuals while implementing controls and measures designed to detect
duplicate payments and identify possible instances of fraud, waste, and abuse. For
example, SSA moved quickly to ensure that Hurricanes Katrina and Rita victims
continued to receive their monthly payments and other vital services. In addition, SSA
responded to the September 11th terrorist attacks by activating special emergency
procedures to give the fastest possible service to families of the victims.

Financial Statements

In FY 2008, SSA received its 15th consecutive unqualified financial statement audit
opinion. The unqualified opinion attests to the fair presentation of SSA’s financial
statements and demonstrates SSA’s discipline and accountability as stewards of Social
Security funds. Additionally, SSA’s FY 2008 Performance and Accountability Report
received the Certificate of Excellence in Accountability Reporting from the Association
of Government Accountants for the 11th time. SSA is the only Agency to have received
this prestigious award each year since its inception.

Old-Age and Survivors Insurance Claims

According to SSA’s FY 2008 Improper Payments Report, the Agency achieves a very
high accuracy rate in processing Old-Age and Survivors Insurance (OASI) claims. In
FY 2007, the Agency reported that 99.8 percent and 99.9 percent of OASI payments
are free of overpayment and underpayment errors, respectively. Additionally, to
improve the efficiency of processing retirement claims, SSA recently implemented the
iClaim application to allow claimants to complete and submit applications for retirement
via the Internet. This process, known as Ready Retirement, is part of an innovative
initiative to enhance customer service through improved policies, processes, and
systems to prepare the Agency for the 80 million baby boomers who will file for
retirement over the next 20 years. While we have not audited these processes, we




Opportunities and Challenges for SSA (A-08-09-29152)                                     27
applaud the concepts. We will monitor the use and processing of iClaims to ensure the
accuracy of OASI claims remains high, while improving the efficiency of the application
process.




Opportunities and Challenges for SSA (A-08-09-29152)                                 28
                                                                             Question 4
Describe the adequacy of funding and staffing levels for the Agency.

While SSA has a strong commitment to serving the public and administering its
programs, the Agency has stated that carrying out its primary responsibilities is greatly
hampered by insufficient funding, which has impacted staffing levels. SSA and the
Social Security Advisory Board have indicated that chronic under-funding has
contributed to the Agency’s current crisis—hearing case backlogs, deferred program
integrity actions, increased field office wait times, and increased unanswered calls to the
National 800 number. Because of insufficient funding, SSA’s staffing levels are at their
lowest since 1972—before the SSI program began. In addition, according to SSA, its
workloads will experience a tremendous growth over the next 5 years as the wave of
baby boomers reach retirement age. For example, SSA’s Strategic Plan, Fiscal Years
2008 - 2013, 39 projects that OASI and Medicare workloads will increase by 28 percent,
SSI aged applications by 23 percent, and SSN applications (new and replacement) by
9 percent.

In addition to its core workloads, SSA is also tasked with responsibilities related to the
Medicare Prescription Drug program, verification of employment eligibility, and Medicaid
and Food Stamp programs. Moreover, SSA manages an extensive repository of
information, requiring the Agency to post 270 million earnings items annually to workers’
records, maintain over 60 million SSI records, and store 250 million medical records,
which SSA has indicated is increasing at the rate of 2 million per week. SSA estimates
over 53 percent of its current employees will be eligible for retirement by FY 2017,
resulting in a loss of institutional knowledge. This, combined with the expected
workload increases, will impact SSA’s ability to meet the public’s expectation of quality
service.

Although SSA’s current budget increased, the Agency will need to use the additional
funding to achieve its most critical workloads. We believe SSA needs to implement
meaningful measures and tools for tracking its progress in achieving the goals for which
this funding was provided.

The OIG has not performed any audit work to confirm whether funding shortfalls and
diminished staffing levels have impacted SSA’s ability to operate effectively. However,
we have identified and reported to SSA what we determined were its most serious
management and performance challenges, such as the management of its disability
process, improper payments, and recovery of overpayments. In addition, we have
recommended courses of action the Agency should take to improve its service and
stewardship activities. Nevertheless, at times, SSA has agreed with our
recommendations to improve certain programs and operations, but noted that the


39
     See full report at http://mwww.ba.ssa.gov/asp/ASP2008-2013_Final.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                    29
implementation of the recommendations would be delayed until needed resources were
available.

ODAR

As mentioned earlier, SSA’s disability programs have grown significantly and will
continue to grow. The current case backlog is about 765,000, which has resulted in
individuals waiting on average about 500 days to receive a disability decision. As such,
wait times for a decision have increased by about 200 days in the last 7 years. SSA’s
success in reducing the backlog of cases depends on many factors, including its ability
to (1) hire and train additional ALJs and support staff, (2) provide improved automation
and other tools to enhance hearing office performance, and (3) work with ALJs and
support staff to increase productivity and timeliness. With additional funding provided in
FY 2009, SSA plans to hire up to 157 ALJs in FY 2009 to help address the backlog and
influx of new disability claims. SSA also plans to hire additional support
staff—expecting to increase the current staff-to-judge ratio.

Possible DDS Furloughs

Another issue impacting SSA’s disability workload concerns States who may furlough
employees, including DDS employees. In a recent review of this issue, we determined
that five States were furloughing DDS employees—California, Connecticut, Maryland,
Massachusetts, and Oregon. These five States comprise over 15 percent of the
national DDS workload each year. 40 For California, we estimated that this would delay
over 2,300 applications from being processed, of which we estimated 776 would result
in allowances. Because of the furlough, we estimated that some newly disabled
claimants in California would receive delayed benefit payments totaling $648,000.
Further, since January 1, 2009, California’s initial claims pending have increased by
9.7 percent and its reconsideration claims pending have increased by 16.1 percent as a
result of increased applications and the State furloughs. The Commissioner sent a
letter to each of the relevant Governors, reminding them that SSA, not the States, pays
100 percent of the costs of processing these workloads.

CDRs and Redeterminations

SSA indicated that continual under-funding contributed to the Agency’s reduction in the
number of CDRs and redeterminations that staff performs. The Agency chose this plan
of action to maintain its frontline services, such as processing initial claims and issuing
SSN cards.

As mentioned previously, our audits have shown that medical CDRs and
redeterminations are effective in reducing improper payments. However, between
FYs 2003 and 2008, SSA decreased the number of medical CDRs and
redeterminations it conducted by about 60 percent and 50 percent, respectively. In an

40
 Impact of State Employee Furloughs on the Social Security Administration’s Disability Program, issued
March 2009, http://www.ssa.gov/oig/ADOBEPDF/A-01-09-29137.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                30
April 2009 audit, 41 we determined that SSA performed benefit recalculations and
increased beneficiaries’ payments without performing a work-related CDR. As such,
SSA missed a savings opportunity. Overall, we estimated that SSA could save $15 for
every $1 it spent on work-related CDRs. Therefore, we recommended—and SSA
agreed—to develop and implement a plan to allocate more resources to timely perform
work-related CDRs. SSA stated that resources provided by the American Recovery and
Reinvestment Act and the Agency’s FY 2009 appropriations will help reduce the
pending workload levels, including work-related CDRs.

Information Security Management Structure and Staff

In an ongoing audit, which will be released shortly, we determined SSA’s security
management structure and current level of responsibility and resources provided to the
Chief Information Officer (CIO) and the Chief Information Security Officer (CISO) are not
sufficient to support the security responsibilities as defined by current Federal laws,
regulations, and requirements and to meet the needs of the future challenges. Our
review found the following issues with SSA’s security management structure:

•    SSA’s CIO and CISO do not have sufficient delegated authorities and resources.
     For example, they do not

      manage, direct, or monitor SSA’s agencywide security program as a whole;
      have authority over personnel security, physical security, and security of SSA’s
       data exchange program; or
      lead SSA’s Continuity of Operations program.

•    SSA has a decentralized security program structure without a single management
     focal point. The CISO’s delegated authority is limited to security policy making and
     does not include responsibility for SSA’s agencywide compliance with the Federal
     Information Security Management Act of 2002 (FISMA), Pub. L. No. 107-347, and
     other security standards and requirements.

•    SSA should consider a security structure that will enable the Agency to meet future
     security requirements. The FISMA Act of 2008, 42 which was proposed but not
     enacted, would have made the CISO the primary senior officer for information
     security and systems. The proposed legislation would have placed the CIO’s current
     FISMA responsibilities under the CISO. The legislation also would have required the
     Agency’s incident reporting capability to be housed in the office of the CISO and
     would have required the CISO to perform continuous monitoring of malicious
     activities on Agency networks. Although the legislation was not enacted, similar
     legislation may be introduced in the future. We believe these provisions are sound
     practices that SSA should consider adopting, even in the absence of legislation.

41
   Follow-Up on Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File, issued
April 2009, http://www.ssa.gov/oig/ADOBEPDF/A-01-08-28075.pdf.
42
   U.S. Senate Bill Number 3474, Federal Information Security Management Act of 2008, was introduced
in the 110th Congress in September 2008.


Opportunities and Challenges for SSA (A-08-09-29152)                                                   31
   Doing so would demonstrate SSA’s commitment to ensuring the security of the vast
   amount of personal information stored in its systems.

Field Office Wait Times

As mentioned in response to Question 2, the Commissioner recently testified that SSA
field offices have steadily experienced an increase in the number of visitors. In
February 2009, field offices averaged over 940,000 visitors per week—representing a
10 percent increase over last year. Additionally, in FY 2008, over 3 million visitors
waited more than 1 hour before field office personnel could assist them. Eventually,
field office visits may decrease as more eServices are provided by the Agency and used
by the public. However, to achieve SSA’s service goals in the interim, the Agency may
require additional funding and staff for its approximately 1,300 field offices.

National 800 Number Staffing

The Commissioner recently testified that the Agency’s inability to hire teleservice center
staff has contributed to a deterioration in service by the National 800 number. The
Commissioner indicated nearly 15 percent of callers who call SSA’s National
800 number receive a busy signal. As a result, many of the customers who were
unable to conduct their business over the telephone chose to visit their local field office,
which contributed to the higher field office waiting time. As with field office visits,
eventually, calls to the National 800 number may decrease as more eServices are
provided by the Agency and used by the public. However, to achieve SSA’s service
goals in the interim, the Agency may require additional funding and staff for its
teleservice centers.




Opportunities and Challenges for SSA (A-08-09-29152)                                      32
                                                                  Question 5
What has been done to address high-risk areas or material weaknesses in the
programs or components identified as needing improvement?

To their credit, SSA leadership and personnel endeavor to address weaknesses
identified in Agency programs or components. The following response is not
all-inclusive, but provides information on some of the Agency’s more notable initiatives.

Disability Initiatives and ODAR Backlog Reduction Plan

The Commissioner’s plan to eliminate the disability backlog of hearing requests and
prevent its recurrence focuses on (1) compassionate allowances, (2) improving hearing
office procedures, (3) increasing adjudicatory capacity, and (4) increasing efficiency with
automation and improved business processes. The compassionate allowances
initiative builds on the success of the Quick Disability Determination process, which
identifies and allows benefits to applicants who are obviously disabled. SSA has
developed and expanded the use of automated screening tools to identify types of
cases that fall under the compassionate allowances initiative. SSA has improved
hearing office procedures by focusing on eliminating the backlog of aged cases,
currently those that are over 850 days old. SSA has increased adjudicatory capacity by
filling dockets to capacity, working with ALJs to increase dispositions per year, and
establishing National Hearing Centers. Finally, the Agency increased efficiency with
automation and improved business processes by having all DDS and ODAR offices
transition from processing disability claims using paper folders to using electronic
folders.

Enumeration Controls

As mentioned in response to Question 3, over the past decade, SSA has implemented
numerous improvements to its enumeration process. We recognize that with these new
procedures, the enumeration workload has increased in complexity for SSA personnel
and resulted in some difficulties or delays for SSN applicants. Despite these
challenges, we believe SSA’s improved procedures help ensure the Agency is properly
assigning these very important numbers.

Electronic Death Registration

SSA is currently working with State governments and other jurisdictions on a
streamlined death registration process, known as Electronic Death Registration (EDR).
EDR will replace the States’ more labor-intensive process through which SSA currently
receives death information. This streamlined electronic process allows States to
transmit to SSA more accurate and timely death reports. EDR allows SSA to receive
verified death reports within 5 days of the individual’s death and within 24 hours after
the State receives it. SSA can take immediate action to terminate benefits on these


Opportunities and Challenges for SSA (A-08-09-29152)                                    33
cases. According to SSA, EDR transactions are virtually error free, and SSA systems
automatically stop benefits without employee intervention. Yet, according to SSA, many
States lag so far behind with respect to the technology needed that a grant from DHHS
(the Agency with primary responsibility for this initiative) would not be sufficient to
enable the States to participate. As such, EDR has slowly expanded on a
State-by-State basis. As of March 31, 2009, 25 States, New York City, and the District
of Columbia participate in this initiative. Five additional States plan to implement EDR
by the end of 2010.

Human Capital Planning

As of June 30, 2008, SSA received a “green” assessment on the President’s
Management Agenda scorecard under human capital initiatives. This scorecard tracks
how well the departments and major agencies were executing certain governmentwide
management initiatives. However, SSA, like many other Federal agencies, is being
challenged to address its human capital shortfalls. The Agency projects over
53 percent of its employees will be eligible to retire by FY 2017. It is expected this will
result in a loss of institutional knowledge that will affect SSA’s ability to deliver quality
service to the public. The Agency’s service and staffing challenges must be addressed
by leadership and succession planning, strong recruitment and retention strategies, and
competency development and increased training. SSA has implemented various
strategies to address its human capital challenges, such as filling positions before key
vacancies occur, using understudies in targeted positions, conducting leadership
symposiums to strengthen knowledge and skills of mid-level managers, and developing
plans to minimize competency gaps in mission-critical occupations.

The Agency reported that it also redirected and established new priorities to address its
service delivery challenges. One of its priorities was to increase efficiency through
technology. SSA reported using speech technology for the National 800 number to
reduce call handle-time, increase overall accuracy, and improve efficiency by reducing
the time callers spend navigating through menu prompts. The Agency also released a
newly redesigned Social Security Online homepage to make the website more
user-friendly and help reduce the number of unnecessary trips customers would make
to their local Social Security office.

The U.S. Government Accountability Office reported SSA field offices largely met work
demands between FYs 2005 and 2007, despite operating with fewer staff and an
increased demand for services. To manage the workload, field offices shared work
among offices and redirected staff to meet critical needs. The Agency also encouraged
customers to make greater use of Internet and other eServices.

Studies have shown that the public wants to conduct more business via the Internet,
and SSA has taken steps to address the challenges of offering eServices to the public.
Since the Agency publicized that the first baby boomer filed for retirement using the
Internet, it has seen a 43-percent increase in the number of retirement applications filed
online. SSA’s Internet retirement application is one of the highest rated Internet



Opportunities and Challenges for SSA (A-08-09-29152)                                       34
applications in the Government, and the Agency estimates that Internet retirement
claims have saved adjudicators an average of 13 minutes, up from 9 minutes in 2006.
Furthermore, SSA has been successful in familiarizing field office staff with the Internet
application, with almost two-thirds of the staff saying it was very easy to assist the public
when asked questions regarding the application. SSA plans to implement a redesigned
Internet retirement application that features easier navigation and simple on-screen help
and will only ask questions pertinent to an individual’s personal situation based on
information already housed in SSA’s electronic records.




Opportunities and Challenges for SSA (A-08-09-29152)                                      35
                                                                 Question 6
Are the Agency’s financial accounting systems adequate?

SSA’s FY 2008 consolidated financial statements, including the Statement of Social
Insurance, received the 15th consecutive unqualified financial statement audit opinion.
The unqualified opinion attests to the fair presentation of SSA’s financial statements and
demonstrates SSA’s discipline and accountability as stewards of Social Security funds.
Additionally, SSA’s FY 2008 Performance and Accountability Report received the
Certificate of Excellence in Accountability Reporting from the Association of
Government Accountants for the 11th time. SSA is the only Agency to have received
this prestigious award each year since its inception.

Further, SSA opted to receive an opinion on its assertion that internal controls over
financial reporting are operating effectively. SSA has obtained an unqualified opinion
on this assertion each year since 1997, when it began contracting with an independent
public accounting firm to complete the audit and provide an opinion on internal controls.
SSA elected to receive an opinion on internal controls as evidence of its financial
management leadership role in promoting accountability throughout the Agency.

In FY 2008, SSA maintained “green” scores for both status and progress on the
President’s Management Agenda Improved Financial Performance initiative. Building
on past accomplishments, SSA integrated additional financial systems with its existing
accounting system, the Social Security Online Accounting and Reporting system. The
integration of these systems allowed SSA to validate data and check funding from
source applications in real-time, thus eliminating errors, increasing the integrity of
accounting data, and providing more timely information to managers.




Opportunities and Challenges for SSA (A-08-09-29152)                                   36
                                                                                Question 7
Does the Agency adequately oversee contracts, and are contract funds being
spent effectively and efficiently?

SSA spent $881 million for contract payments in FY 2008, which represents about
9 percent of the Agency’s administrative expenditures ($9.9 billion). Contract oversight
is inherently a major management challenge for SSA because (1) the total amount of
contracts awarded is significant and (2) without proper oversight, there is a risk that
contractors may not adequately deliver services and meet contract objectives. In recent
audits, we concluded that generally the costs claimed for services provided by the
contractors involved were reasonable and allowable, but found room for improvement.

Specifically, recent audits identified three major areas needing improvement to ensure
effective and efficient contract management. These are contractor suitability, 43
post-implementation reviews for systems contracts and monitoring of contractor
performance. Four audits 44 identified various contractor suitability determination issues
including: (1) a contractor failed to obtain suitability determinations for individuals
working on the project; (2) a contractor obtained suitability determinations for other
contracts, but not for the contract reviewed; (3) a contractor permitted an employee with
an “unsuitable” determination to access personally identifiable information (PII); and
(4) SSA’s files did not document the current working status of contract employees. 45

One audit 46 identified a need for a post-implementation review for system contracts.
The audit concluded that approximately $5.3 million, or half of the total costs, could
have been put to better use had the contract been better monitored and evaluated.




43
   5 C.F.R. § 731.104(a) states that to establish a person’s suitability for employment, appointments to
positions in the competitive service require the person to undergo an investigation by the Office of
Personnel Management (OPM) or by an agency with delegated authority from OPM to conduct
investigations. At SSA, contract employees are investigated at the same risk level as Federal employees
who would be performing the same type of work.
44
   The Social Security Administration’s Oversight of MDRC Contract No. SS00-06-60075,
December 2008, http://www.ssa.gov/oig/ADOBEPDF/A-15-08-18010.pdf; The Social Security
Administration’s Information Technology Maintenance and Local Area Network Relocation Contract,
May 2007, http://www.ssa.gov/oig/ADOBEPDF/A-14-07-17022.pdf; The Social Security Administration’s
Consulting Services Contract for the Time Allocation System, August 2008
http://www.ssa.gov/oig/ADOBEPDF/A-14-08-18020.pdf; and Medical Consultant Contracts, issued
September 2008, http://www.ssa.gov/oig/ADOBEPDF/A-02-07-17050.pdf.
45
   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, defines PII as information that can be used to distinguish or trace an individual's
identity, such as their name, Social Security number, biometric records, etc., alone or when combined
with other personal or identifying information, which is linked or linkable to a specific individual, such as
date and place of birth, mother’s maiden name, etc.
46
   Contract for the Benefit Offset National Demonstration Project with ABT Associates, Incorporated
(A-05-08-18041), March 2009, http://www.ssa.gov/oig/ADOBEPDF/A-05-08-18041.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                       37
The most prevalent area needing improvement is SSA’s monitoring of contract
performance. Seven 47 recent audits revealed issues with SSA’s monitoring of contracts
including the need to monitor deliverables; evaluate performance; ensure financial
accountability, including accurate and complete billing documentation; train project
officers; provide an alternate project officer for each contract; maintain documentation of
oversight by project officers; and evaluate the continued feasibility of contract terms.
For example, one audit identified a process where paper documents being forwarded
were already available as scanned electronic images. This unnecessary duplication of
effort would cost about $1.6 million over the remainder of the contract if the practice
continued. Also, the audit of the Ticket to Work and Self-Sufficiency program’s cost
effectiveness recommended that SSA evaluate the continued viability of the program
because it did not increase the percentage of disabled beneficiaries who returned to
work, while costing the Agency $138 million annually. The $138 million annual costs
include $18 million of contract costs, including $13 million for an outside contractor to
manage the program for SSA.




47
   The Social Security Administration’s Oversight of MDRC Contract No. SS00-06-60075,
December 2008, http://www.ssa.gov/oig/ADOBEPDF/A-15-08-18010.pdf; The Social Security
Administration’s Information Technology Maintenance and Local Area Network Relocation Contract,
May 2007, http://www.ssa.gov/oig/ADOBEPDF/A-14-07-17022.pdf; The Social Security Administration’s
Consulting Services Contract for the Time Allocation System, August 2008,
http://www.ssa.gov/oig/ADOBEPDF/A-14-08-18020.pdf; Contract with Lockheed Martin Government
Services, Inc., for Digital Imaging Services, November 2008, http://www.ssa.gov/oig/ADOBEPDF/A-04-
08-18066.pdf; Medical Consultant Contracts, September 2008, http://www.ssa.gov/oig/ADOBEPDF/A-02-
07-17050.pdf; Contract with Riojas Enterprises, Incorporated, for Case Folder Filing Support Services –
Contract #0600-98-34420, June 2007, http://www.ssa.gov/oig/ADOBEPDF/A-04-07-17027.pdf; and,
Ticket to Work and Self-Sufficiency Program Cost Effectiveness, August 2008,
http://www.ssa.gov/oig/ADOBEPDF/A-02-07-17048.pdf.


Opportunities and Challenges for SSA (A-08-09-29152)                                                 38
                                                             Conclusions
Without question, since its inception in 1936, SSA has served this Nation well. The
Agency has a vital mission and enormous responsibilities—most importantly, ensuring
that about 60 million people entitled to OASDI and/or SSI benefits receive
approximately $700 billion each year. However, the world is changing and with SSA’s
ever-increasing and critical responsibilities, much is expected. Inefficiencies and
program weaknesses cannot be allowed to continue, lest they diminish SSA’s success
in meeting current and future needs of those relying on the essential programs it
administers.

To this end, the OIG has and will continue to recommend corrective actions, which we
believe necessary to remedy inefficiencies and prevent fraud, waste, and abuse.
Through the years, we have issued hundreds of reports with recommendations for the
Agency’s consideration. This report highlights areas we believe require immediate
attention in light of major challenges SSA faces today and in the very near future. Many
of the management reforms we discuss center around the Agency’s stewardship
responsibilities—preventing and detecting improper payments. This report also
addresses reforms we believe are necessary to create a more efficient disability
determination process and to better plan and manage its IT initiatives. We will continue
to assess these and other important areas in the years to come.

SSA will be faced with unprecedented challenges in the next decade—a significantly
growing workload, but a workforce that will be drained through its own retirements. As
such, human capital, program, and systems planning are more important than ever. We
are encouraged that SSA recently received much needed budget increases to address
some of its immediate concerns. Yet, we encourage SSA to continue developing
innovative and long-term solutions to problems that exist now and challenges that the
Agency will face in the future. We appreciate the opportunity to provide our perspective
on SSA’s operations and respond to the Committee’s specific questions and hope our
insight will assist the Committee in its oversight role.




Opportunities and Challenges for SSA (A-08-09-29152)                                  39
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology




Opportunities and Challenges for SSA (A-08-09-29152)
                                                                         Appendix A

Acronyms
    ALJ                             Administrative Law Judge

    AWG                             Administrative Wage Garnishment

    CBO                             Congressional Budget Office

    CDI                             Cooperative Disability Investigations

    CDR                             Continuing Disability Review

    C.F.R.                          Code of Federal Regulations

    CIO                             Chief Information Officer

    CISO                            Chief Information Security Officer

    Commissioner                    The Commissioner of Social Security

    Committee                       Committee on Ways and Means, U.S. House of
                                    Representatives
    DDS                             Disability Determination Services

    DHHS                            U.S. Department of Health and Human Services

    EDR                             Electronic Death Registration

    EEO                             Earnings Enforcement Operation

    FISMA                           Federal Information Security Management Act
                                    of 2002

    FTE                             Full-Time Equivalent

    FY                              Fiscal Year

    GPO                             Government Pension Offset

    Improper Payments               FY 2008 Improper Payments Information Act of
    Report                          2002 Detailed Report

    IRM                             Information Resources Management

    IT                              Information Technology



Opportunities and Challenges for SSA (A-08-09-29152)                               A-1
    ITAB                            Information Technology Advisory Board

    NAS                             National Academy of Sciences

    Numident                        Numerical Identification File

    OACT                            Office of the Actuary

    OASDI                           Old-Age, Survivors and Disability Insurance

    OASI                            Old-Age and Survivors Insurance

    ODAR                            Office of Disability Adjudication and Review

    OIG                             Office of the Inspector General

    OMB                             Office of Management and Budget

    OPM                             Office of Personnel Management

    PII                             Personally Identifiable Information

    PIR                             Post-Implementation Review

    POMS                            Program Operations Manual System

    Pub. L. No.                     Public Law Number

    SSA                             Social Security Administration

    SSI                             Supplemental Security Income

    SSN                             Social Security Number

    TOP                             Treasury Offset Program

    U.S.                            United States

    U.S.C.                          Unites States Code

    WC                              Workers’ Compensation

    WEP                             Windfall Elimination Provision




Opportunities and Challenges for SSA (A-08-09-29152)                               A-2
                                                                        Appendix B

Background, Scope and Methodology
Background
Social Security Administration

The Social Security Administration's (SSA) mission is to advance the economic security
of the Nation’s people through compassionate and vigilant leadership in shaping and
managing America's Social Security programs. SSA is headed by a Commissioner and
has a staff of approximately 62,000 employees. SSA delivers services through a
nationwide network of over 1,400 offices that include regional offices; field offices; card
centers; teleservice centers; processing centers; hearing offices; an Appeals Council
and State and territorial partners—the Disability Determination Services.

The Agency administers one of the Nation’s largest entitlement programs—the Old-Age,
Survivors and Disability Insurance (OASDI) program, commonly referred to as Social
Security. Monthly cash benefits are financed through payroll taxes paid by workers and
employers and by self-employed persons, and the amount of benefits is based on an
individual’s taxable earnings during his or her lifetime.

SSA also administers the Supplemental Security Income (SSI) program, which is
designed to provide income for or supplement the income of aged, blind, or disabled
adults and children with limited income and resources. Unlike Social Security benefits
that are paid from the OASDI Trust Fund, SSI payments are financed by general tax
revenues. Qualified recipients receive monthly cash payments to raise their income to a
minimum level guaranteed by the SSI program.

Along with SSA’s core workload of paying cash benefits, SSA also issues original and
replacement Social Security number (SSN) cards, processes earnings items to maintain
workers’ lifelong earnings records, handles transactions through SSA’s National
800 number, issues Social Security Statements, and participates in SSN verifications for
employers. In addition to administering the Agency’s programs, SSA also assists the
public in applying for food stamps and Medicare, including low-income subsidies under
the Medicare Prescription Drug Plan.

Office of the Inspector General

The SSA Office of the Inspector General (OIG) is directly responsible for meeting the
statutory mission of promoting economy, efficiency, and effectiveness in the
administration of SSA programs and operations and to prevent and detect fraud, waste,
abuse, and mismanagement in such programs and operations. To accomplish its
mission, the OIG directs, conducts, and supervises a comprehensive program of audits,


Opportunities and Challenges for SSA (A-08-09-29152)                                    B-1
evaluations, and investigations relating to SSA's programs and operations. OIG also
searches for and reports systemic weaknesses in SSA programs and operations, and
makes recommendations for needed improvements and corrective actions. OIG
provides timely, useful, and reliable information and advice to Administrative officials,
Congress, and the public. OIG’s efforts are conducted by 576 employees
nationwide—investigators, auditors, attorneys, and others.

Scope and Methodology
We limited our review to summarizing prior and ongoing OIG and SSA work related to
the questions provided by the Congressmen. We also reviewed applicable laws,
regulations, and other relevant publications. We performed our work at the Office of
Audit in Birmingham, Alabama, during March and April 2009. We conducted our review
in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.




Opportunities and Challenges for SSA (A-08-09-29152)                                    B-2
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
